App. 1
19-259-cv
Jake McHerron, et al. v. Burnt Hills - Ballston Lake
Central School Dist., et al.
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have
precedential effect. Citation to a summary order
filed on or after January 1, 2007, is permitted
and is governed by Federal Rule of Appellate
Procedure 32.1and this Court's Local Rule
32.1.1. When citing a summary order in a
document filed with this Court, a party must
cite either the Federal Appendix or an
electronic
database
(with
the
notation
"summary order"). A party citing a summary
order must serve a copy of it on any party not
represented by counsel.
At a stated term of the United States Court
of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on
the 2nd day of October, two thousand nineteen.

App. 2
PRESENT: JOSE A. CABRANES,
GERARD E. LYNCH,
CHRISTOPHER F. DRONEY,
Circuit Judges.

JAKE MCHERRON AND MARY LOU VOSBURGH,

Plaintiffs-Appellants,

19-259-cv

v.
BURNT HILLS-BALLSTON
LAKE CENTRAL SCHOOL
DISTRICT, PATRICK
MCGRATH, TIMOTHY
BRUNSON, AND JOE SCALISE,

Defendants-Appellees.
FOR PLAINTIFFS-APPELLANTS:
PHILLIP G. STECK,

App. 3
Cooper Erving & Savage LLP, Albany, NY.
FOR DEFENDANTS-APPELLEES: PATRICK J.
FITZGERALD, Girvin & Ferlazzo, P.C., Albany,
NY.
Appeal from a judgment of the United
States District Court for the Northern District
of New York (Mae A. D' Agostino, Judge).

UPON DUE CONSIDERATION WHEREOF,
IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the judgment of
the District Court be and hereby is
AFFIRMED.
Jake McHerron and Mary Lou Vosburgh
(jointly, "Plaintiffs''), appeal from a January 24, 2019
judgment of the District Court (1) granting the
motion of Defendants-Appellees ("Defendants") to
dismiss Plaintiffs' complaint under Fed. R. Civ. P.
12(b)(6) in an action alleging violations of Plaintiffs'
substantive and procedural due process rights; and
(2) denying as futile Plaintiffs' cross

App. 4
motion to amend their complaint, in which they
sought to add a claim for retaliation under the First
Amendment. The District Court's decision on
Plaintiffs' substantive due process claim is not
challenged on appeal. We assume the parties'
familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.
We review de novo a dismissal for failure to
state a claim, asking "whether the allegations in the
complaint, taken as true, state a plausible claim for
relief." N RP Holdings LLC v. City of Buffalo, 916 F.3d
177, 189 (2d Cir. 2019). We also review de nova the
denial of a motion to amend a futile complaint. Chunn
v. Amtrak, 916 F.3d 204, 207 (2d Cir. 2019). After
independently reviewing the record, and for the
reasons stated below, we affirm the District Court's
judgment in its entirety.
I.
Plaintiffs primarily dispute the District
Court's finding that they had failed to state a
"stigma­ plus" claim under a theory that their

App. 5
protected liberty interests were violated without due
process of law. Without expressing any view on the
District Court's analysis of this issue, we affirm the
District Court's January 24, 2019 judgment, albeit on
a different ground than that addressed by that court
in its January 24, 2019 Memorandum-Decision and
Order ("M&O"). We may affirm the decision of a
district court for any reason supported by the record.
Latner v. Mount Sinai Health Sys., Inc, 879 F.3d 52, 54
(2d Cir. 2018), as amended (Jan. 9, 2018). Upon an
independent review of the record, and assuming
arguendo that Plaintiffs were indeed deprived of a
protected liberty interest, we conclude that an Article
78 proceeding provided by New York law is a
sufficient post-deprivation remedy, which defeats
Plaintiffs' "stigma-plus" claim.
New York Civil Practice Law and Rules Article
78 provides for a proceeding that affords Plaintiffs
due process of law. Plaintiffs' contention that an
Article 78 proceeding would be insufficient here to
remedy their alleged harm is directly contradicted by
the law of our Circuit. In a previous case considering
a stigma-plus claim, we held that "in the context of an
at-will government employee, a reasonably prompt,

App. 6
post-termination name-clearing hearing satisfies
constitutional due process a long as the procedures
afforded at such a hearing are sufficient to protect
the employee's reputational and professional
interests. The availability of such a hearing . . .
defeats [plaintiff’s] stigma-plus claims." Segal v. City of
New York, 459 F.3d 207, 218 (2d Cir. 2006). Since Segal,
we have directly answered in the affirmative the
question of whether an Article 78 hearing provides
the level of process due in those circumstances.

Anemone v. Metro. Transp. Auth., 629 F.3d 97, 121 (2d

Cir. 2011) (holding that, with respect to a procedural
due process claim, "[a]n Article 78 proceeding
provides the requisite post-deprivation process").
Plaintiffs' claim is not saved by any allegation that
they have not yet sought an Article 78 proceeding. We
have held that the availability of the Article 78
remedy satisfies due process and defeats a stigmaplus claim "even if [plaintiff] failed to pursue it." Id
Because the availability of an Article 78 proceeding
defeats a procedural due process claim of the sort
asserted by Plaintiffs, we affirm the dismissal of their
stigma-plus claim.

App. 7
II.
Finally, Plaintiffs appeal so much of the
District Court's judgment as denied their motion to
amend their complaint, in which they sought to add a
First Amendment retaliation claim. In order to state
a claim for retaliation in this case, Plaintiffs must
show that, inter alia, they were speaking on a matter
of public concern. Garcetti v. Ceballos, 547 U.S. 410, 417
(2006); see also, e.g., Weintraub v. Board of Education,
593 F.3d 196, 201-202 (2d Cir. 2010). As the District
Court correctly stated, "whether an employee's speech
addresses a matter of public concern must be
determined by the content, form, and context of a
given statement, as revealed by the whole record."
Connick v. Myers, 461 U.S. 138, 148 (1983). It is well
established that "speech that principally focuses on
an issue that is personal in nature and generally
related to [the speaker's] own situation, or that is
calculated to redress personal grievances-even if
touching on a matter of general importance-does not
qualify for First Amendment protections." Montero v.
City of Yonkers, New York, 890 F.3d 386, 399-400 (2d

App. 8
Cir. 2018) (internal quotation marks and citations
omitted). That is so even where the speech takes the
form of a lawsuit. See Ruotolo v. City of New York, 514
F.3d 184, 189 (2d Cir. 2008). Although we highlight
that a speaker's motive for the speech at issue here is
conclude-for
not necessarily
dispositive, we
substantially the reasons described in the M&Othat Plaintiffs here were not speaking on a matter of
public concern. We therefore affirm the District
Court's judgment denying Plaintiff's cross-motion to
add this futile retaliation claim.
CONCLUSION
We have reviewed all of the remaining
arguments raised by Appellants on appeal and find
them to be without merit. For the foregoing reasons,
we AFFIRM the January 24, 2019 judgment of the
District Court.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

App. 9
United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square New York, NY 10007
ROBERT A.
KATZMANN
CHIEF
JUDGE
Date: October
02, 2019
Docket #: l 9259cv
Short Title:
McHerron v.
Burnt Hills Ballston Lake
Ce

CATHERINE
O'HAGAN
WOLFE
CLERK OF
COURT
DC Docket #: 18cv-1003
DC Court:
NDNY
(SYRACUSE)
DC Judge:
D'Agostino DC
Judge: Hummel

BILL OF COSTS INSTRUCTIONS
The requirements for filing a bill of costs are set forth
in FRAP 39. A form for filing a bill of costs is on the
Court's website.
The bill of costs must:
* be filed within 14 days after the entry of judgment;
* be verified;
*
be served on all adversaries;

App. 10

*

not include charges for postage, delivery,
service, overtime and the filers edits;
*
identify the number of copies which comprise
the printer's unit;
*
include the printer's bills, which must state the
minimum charge per printer's unit for a page, a
cover, foot lines by the line, and an index and table of
cases by the page;
*
state only the number of necessary copies
inserted in enclosed form;
*
state actual costs at rates not higher than
those generally charged for printing services in New
York, New York; excessive charges are subject to
reduction;
*
be filed via CMIECF or if counsel is exempted
with the original and two copies.
United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square New York, NY 10007
ROBERT A.
CATHERINE O’HAGAN
KATZMANN
WOLFE
CHIEF JUDGE
CLERK OF COURT
Date: October 02, 2019 DC Docket#: 18-cv-1003
Docket #: 19-259cv
DC Court: NDNY
Short Title:
(SYRACUSE)
McHerron v. Burnt
DC Judge: D’Agostino
Hills – Ballston Lake Ce DC Judge: Hummel

App. 11
VERIFIED ITEMIZED BILL OF COSTS
Counsel for
_________________________________________________
respectfully submits, pursuant to FRAP 39 (c) the
within bill of costs and requests the Clerk to prepare
an itemized statement of costs taxed against the
_________________________________________________
and in favor of
_________________________________________________
for insertion in the mandate.
Docketing Fee

_______________

Costs of printing appendix (necessary copies____)___
Costs of printing brief (necessary copies_____)______
Costs of printing reply brief (necessary copies___)___
(VERIFICATION HERE)
Signature

App. 12
UNITED STATES DISTRICT COURT NORTHERN
DISTRICT OF NEW YORK
MARY LOU VOSBURGH and JAKE MCHERRON,
vs.

Plaintiffs,
1:18-CV-1003
(MAD/CFH)

BURNT HILLS - BALLSTON LAKE CENTRAL
SCHOOL DISTRICT, PATRICK MCGRATH,
TIMOTHY BRUNSON, and JOE SCALISE,
Defendants.
APPEARANCES:

OF COUNSEL:

COOPER, ERVING &
SAVAGE, LLP
39 North Pearl Street, 4th
Floor Albany, New York
12207 Attorneys for
Plaintiffs

PHILLIP G.
STECK, ESQ.

App. 13
GIRVIN & FERLAZZO, PC
20 Corporate Woods
Boulevard Albany, New
York 122211 Attorneys for
Defendants

PATRICK J.
FITZGERALD
III, ESQ.

Mae A. D’Agostino, U.S. District Judge:
MEMORANDUM-DECISION AND ORDER
I. INTRODUCTION

Plaintiffs commenced this action against
Burnt Hills - Ballston Lake Central School District
(the "District") and its employees Patrick McGrath,
Timothy Brunson, and Joe Scalise on August 21,
2018, alleging violations of their procedural and
substantive due process rights. See Dkt. No. 1 at
¶1. Defendants moved to dismiss the action and
Plaintiffs have cross-moved to amend their
Complaint to add a retaliation claim under the
First Amendment. See Dkt. Nos. 14, 17. For the
following reasons, Defendants' Motion to Dismiss is
granted in its entirety and Plaintiffs' Cross-Motion
to Amend the Complaint is denied as futile.
II. BACKGROUND

App. 14
A.

Facts'

1.

Parties

Plaintiffs are coaches of the girls lacrosse team in
the District and are certified physical education
teachers. See Dkt. No. 1 at ¶ 8; Dkt. No. 17-2 at 9.
Plaintiff Jake McHerron has coached since 2009
and worked as a substitute teacher in the District
for ten years. See Dkt. No. 1 at ¶¶ 8, 14; Dkt. No.
17-2 at 12. Plaintiff Mary Lou Vosburgh joined as
an assistant coach in 2017. See Dkt. No. 1 at ¶ 15.
Patrick McGrath is the Superintendent of the
District, Timothy Brunson is the Principal of Burnt
Hills - Ballston Lake High School, and Joe Scalise is
the Athletic Director. See Dkt. No. 1 at ¶¶9-11.

2.

Complaints about Plaintiffs

During the 2018 lacrosse season, some
parents complained to Defendants about "minor
incidents in which the coaches attempted to get the
players to fit within the team concept, disputed
some criticism of their children, were unhappy with
allocations of playing time, etc." See id. at ¶¶18-20.
Plaintiffs believe that these criticisms did not
involve "wrongdoing of any significant kind" and

App. 15
were "simply of the type normally directed at
coaches from time to time." See id. at ¶¶21, 25.
Additionally, the conduct occurred under the
supervision of Principal Brunson and Athletic
Director Scalise, who never suggested that Plaintiffs
change their coaching techniques. See id. at ¶22.

3. Defendants' Response
On May 17, 2018, the District placed
Plaintiffs on paid administrative leave while it
investigated the misconduct allegations. See Dkt.
No. 14-3 at 2; Dkt. No. 14-4 at 2. The investigation,
in Plaintiffs' opinion, "relied on hearsay and
innuendo." See Dkt. No. 1 at ¶30. According to
Plaintiffs, the allegations were not supported by any
reasonable evidence and "caused the plaintiffs to
lose their employment." See id. at ¶ 37. Plaintiffs

1The facts in this section were taken from the
Complaint (Dkt. No. 1) and Proposed Amended Complaint
(Dkt. No. 17-2 at 7-20). For purposes of this motion, the
Court will accept all material facts alleged as true and
construe all reasonable inferences in Plaintiffs' favor. See
Hernandez v. Coughlin, 18 F.3d 133, 136 (2d Cir. 1994)
(citation omitted).

App. 16
requested a name- clearing hearing twice, but
Defendants denied both requests. See id. at ¶39.
While on leave, Plaintiffs were barred from
school grounds. See id. at ¶26; see also Dkt. No. 14-3
at 2; Dkt. No. 14-4 at 2. This meant that McHerron
could not pick up his children from school, and could
only watch school sporting events from a distance.
See Dkt. No. 1 at ¶ 26.
Additionally, Defendants instructed McHerron to
disassociate himself "from anything connected with
Burnt Hills lacrosse," including the Burnt Hills Ballston Lake Spartans Lacrosse Booster Club (the
"Booster Club"), which is a not-for-profit corporation
independent from the school.2 See Dkt. No. 17-2 at
14.

Plaintiffs allege that "the Booster Club was given
confidential information about plaintiffs and the
officers of the Booster Club used that information to
make disparaging comments about the plaintiffs to
lacrosse organizations in the Capital Region." Id.
Plaintiffs claim that "defendants knew or should
have known that officers, who had demonstrated
hostility to plaintiffs, would engage in such conduct"
and failed in their responsibility as supervisors of

App. 17
the Booster Club to prevent such misconduct from
occurring. See id. at 14.
Plaintiffs claim that "Defendants acted to
permanently stigmatize plaintiffs . . . by
suggesting that plaintiffs were a danger to the
health and safety of students, a claim that could
potentially make them unemployable by any
school district." See Dkt. No. 1 at ¶36. McHerron
no
longer
received
substitute
teaching
assignments in the District, despite the fact that
he had substituted there in the past pursuant to a
collective bargaining agreement between the
District and the School Alliance of Substitutes in
Education (the "Substitutes CBA"). See id. at ¶
27; Dkt. No. 17-2 at 12. According to Plaintiffs,

2Eventually, McHerron resumed attending Booster
Club meetings because his son plays on the boys' varsity
lacrosse team. See Dkt. No. 17-2 at 14. McHerron saw
Brunson and Scalise at a Booster Club meeting on October
11, 2018, which was the first time in ten years McHerron
had ever seen a member of the school administration attend
a Booster Club meeting. Id.

App. 18
the Substitutes CBA gave McHerron certain
procedural rights, including the right to be notified
of the reasons for his removal from substitute
teaching. Dkt. No. 17-2 at 12. McHerron never
received such notification. Id.

4. Publicizing the Allegations
Plaintiffs allege that Defendants "publicly
announced" their suspensions before the end of the
2018 lacrosse season, see Dkt. No. 1 at ¶ 24, and
notified the press about the complaints and
suspensions.
See id. at ¶ 28 (alleging that
Defendants "publicized the fact that there had been
parental complaints in the newspaper"); Dkt. No.
17-2 at 10 (alleging that Defendants notified the
press
about
the
suspension).
Additionally,
Defendants told "members of the community" that
the coaches had created a "negative and hostile
environment" and that the girls on the team were
victims of "battered girlfriend syndrome." See Dkt.
No. 1 at ¶ 32-33. Defendants "accused the coaches
of doing things to girls which some parents claimed
happened (for example, an alleged physical
altercation with a student) but the girls' own
parents said never happened." See id. at ¶ 29; Dkt.
No. 17-2 at 12. Defendants also "stated to witnesses

App. 19
that Mary Lou Vosburgh was put in the same
category as Mr. McHerron for being complicit in or
enabling his alleged behavior." See Dkt. No. 17-2 at
13.
Further, Defendants caused the Capital
Region Boards of Cooperative Educational Services
of New York State ("BOCES"), a service which
makes substitute teachers available to twenty four
school districts, to place McHerron on a DO NOT
CALL list. See id. at 11.
Defendants informed BOCES that McHerron was
not allowed to substitute teach in the District in the
2018-2019 school year and submitted a report that
listed several problems they had with McHerron.
Id. These included: "[i]ssue as a role model," "[d]oes
not
take
direction
from
administrators,"
"[i]neffective interaction with students," and "[d]oes
not respect adults/students. " Id. Plaintiffs believe
that the "highly negative comments" contained in
this report could prevent McHerron from ever again
being hired as a substitute teacher or coach. Id. at
11, 14-15.

5. Retaliatory Conduct

App. 20
As permanently certified physical education
teachers, Plaintiffs are part of the Burnt HillsBallston Lake Teachers Association and their
salaries as lacrosse coaches are set by a collective
bargaining agreement (the "Teachers Association
CBA").
Id. at 12. According to Plaintiffs, the
Teachers Association CBA provides that coaches
"will be notified in writing no later than sixty (60)
days prior to the third anniversary date of their
coaching assignments if their services are to be
discontinued. After that date they may not be
removed without a written statement of reasons
which are relevant to the specific assignment." Id.
On August 29, 2018, eight days after Plaintiffs filed
this lawsuit, Defendants advertised the lacrosse
coaching position as vacant on an online job forum.
Id. at 13-14. Plaintiffs have not been notified that
their services as coaches will be discontinued. Id. at
12. Still, Plaintiffs believe that there is "no
indication from defendants that plaintiffs will ever
be allowed to coach lacrosse at Burnt Hills again."
Id. at 14. Because of this, Plaintiffs claim that they
have been "constructively discharged." See id.
B.

Procedural History
Plaintiffs filed a Complaint against

App. 21
Defendants on August 21, 2018, alleging that
Defendants
violated
their
procedural
and
substantive due process rights. See Dkt. No. 1 at
¶¶ 38- 39, 48. On October 15, 2018, Defendants
filed a Motion to Dismiss for failure to state a claim
and requested that the Court consider two letters
sent by the District to Plaintiffs on May 17, 2018
(the "May Letters"), which placed Plaintiffs on paid
administrative leave. See Dkt. Nos. 14, 14-3, 14-4.
Plaintiffs filed an Opposition to the Motion to
Dismiss and Notice of Cross-Motion to Amend the
Complaint on November 5, 2018. See Dkt. No. 17.
Pursuant to Local Rule 7.l(a)(4), Plaintiffs attached
a Proposed Amended Complaint, in which they
added a First Amendment claim alleging that
Defendants violated their right to petition the
government for a redress of grievances. See Dkt.
No. 17-2 at 17-18.
On November 13, 2018,
Defendants filed their Reply. See Dkt. No. 18.
III. DISCUSSION
A.

Motion to Dismiss

1.

Standard of Review

App. 22
To survive dismissal for failure to state a
claim, a party need only present a claim that is
"plausible on its face." Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007). "A claim has facial
plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged." Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (citation omitted). While Rule 8(a)
of the Federal Rules of Civil Procedure, which sets
forth the general rules of pleading, "does not
require detailed factual allegations, . . . it demands
more than an unadorned" recitation of the alleged
misconduct. Id. (citations and quotation omitted).
In determining whether a complaint states a claim
upon which relief may be granted, "the court must
accept the material facts alleged in the complaint as
true and construe all reasonable inferences in the
Hernandez, 18 F.3d at 136
plaintiff s favor."
(citation omitted) However, "the tenet that a court
must accept as true all of the allegations contained
in a complaint is inapplicable to legal conclusions."
Iqbal, 556 U.S. at 678. "Threadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements, do not suffice." Id. (citation
omitted).

App. 23
2.

Proposed Amended Complaint

Pursuant to Rule 15 of the Federal Rules of
Civil Procedure, leave to amend a complaint should
be freely given "when justice so requires." Fed. R.
Civ. P. 15(a)(2). "[A]bsent evidence of undue delay,
bad faith or dilatory motive on the part of the
movant, undue prejudice to the opposing party, or
futility, Rule 15's mandate must be obeyed."
Monahan v. N.Y.C. Dep't of Corrs., 214 F.3d 275,
283 (2d Cir. 2000)(citing Foman v. Davis, 371 U.S.
178, 182 (1962)). "'An amendment to a pleading is
futile if the proposed claim could not withstand a
motion to dismiss pursuant to Fed. R. Civ. P.
12(b)(6)."' Annunziata v. Collecto, Inc., 293 F.R.D.
329, 333 (E.D.N.Y. 2013) (quoting Lucente v. Int'l
Bus. Machs. Corp., 310 F.3d 243, 258 (2d Cir.
2002)). "Therefore a proposed amendment is not
futile if it states a claim upon which relief can be
granted." Waltz v. Bd. of Educ. of Hoosick Falls
Cent. Sch. Dist., No. 12-CV-0507, 2013 WL 4811958,
*4 (N.D.N.Y. Sept. 10, 2013).
Plaintiffs have added a First Amendment
claim in the Proposed Amended Complaint and
Defendants have responded to the merits of that

App. 24
3.

Materials Attached to Motion to Dismiss

Defendants ask the Court to consider the
May Letters, which formally placed Plaintiffs on
paid administrative leave while the District
investigated the parents' complaints. See Dkt.
No. 14- 1 at 8-9. Although Plaintiffs insist that
they did not rely on these letters in drafting their
Complaint, Defendants argue that Plaintiffs must
have relied on them since the letters established
the administrative leave, which was the "impetus
for" the causes of action. See Dkt. No. 17-1 at 910; Dkt. No. 18 at 7. Additionally, Defendants
argue that "[a]ny attempt by Plaintiffs' counsel to
controvert the facts in the letters or to hide them
from the Court would violate the provisions of
Rule 11 of the Federal Rules of Civil Procedure
and counsel's duty of candor to the Court." See
Dkt. No. 18 at 7.
In considering a motion to dismiss, the
Court may consider documents attached as an
exhibit to the complaint or incorporated by
reference in the complaint, documents that are
integral to a plaintiff s claims, even if not
explicitly incorporated by reference, and matters

App. 25
of which judicial notice may be taken. See Thomas
v. Westchester Cty. Health Care C01p., 232 F. Supp.
2d 273, 275 (S.D.N.Y. 2002) (citations omitted). To
incorporate a document by reference, "the
Complaint must make a clear, definite and
substantial reference to the document[]."

Id. at 275- 76 (citations omitted). However, when a

plaintiff chooses not to attach (or incorporate by
reference) a document that is integral to the
complaint and on which the complaint solely relies,
the defendant may produce the document "when
attacking the complaint for its failure to state a
claim, because plaintiff should not so easily be
allowed to escape the consequences of its own
failure." Cartee Indus., Inc. v. Sum Holding L.P.,
949 F.2d 42, 47 (2d Cir. 1991); see also Chambers v.
Time Warner, Inc., 282 F.3d 147, 153 (2d Cir. 2002)
(finding that on a motion to dismiss, a court may
consider "documents either in plaintiffs' possession
or of which plaintiffs had knowledge and relied on
in bringing suit" (internal quotation marks
omitted)). "[A] plaintiff’s reliance on the terms and
effect of a document in drafting the complaint is a
necessary prerequisite to the court's consideration of
the document on a dismissal motion; mere notice or

App. 26
possession is not enough." Chambers, 282 F.3d at
153 (emphasis in original).
When an attorney presents a pleading to
the Court, the attorney certifies that to the best of
his or her knowledge, information, and belief,
formed after an inquiry that is reasonable under
the circumstances, "the factual contentions have
evidentiary support or, if specifically so identified,
will likely have evidentiary support after a
reasonable opportunity for further investigation
or discovery." Fed. R. Civ. P. 11. "The rules of
professional responsibility . . . impose upon
attorneys a duty of candor in all representations
they make before a tribunal." Mason Agency Ltd.
v. Eastwind Hellas SA, No. 09-CV-06474, 2009
WL 3169567, *2 (S.D.N.Y. Sept. 29, 2009).
The Court finds that Plaintiffs knew about
the May Letters and relied on them in drafting
the Complaint. See Chambers, 282 F.3d at 153.
The causes of action all stem from the fact that
Plaintiffs are no longer coaching in the District,
and the May Letters are the documents that
informed Plaintiffs that this was the case. See
Dkt. No. 14-3 at 2 (informing McHerron that

App. 27
"[e]ffective May 17, 2018 the Burnt Hills-Ballston
Lake Central School District has placed you on paid
administrative leave from your position as Girls
Varsity Lacrosse Coach"); Dkt No. 14-4 at 2
(informing Vosburgh that "[e]ffective May 17, 2018
the Burnt Hills-Ballston Lake Central School
District has placed you on paid administrative leave
from your position as Girls Varsity Lacrosse
Assistant Coach"). Whether Plaintiffs were placed
on paid administrative leave or have been
terminated without procedural protections goes to
the heart of this case. Yet, neither the Complaint or
the Proposed Amendment Complaint actually
discloses the fact that Plaintiffs are on paid
administrative leave. Instead, the Complaint and
Proposed Amended Complaint contain vague,
misleading
suggestions that Plaintiffs were
suspended and terminated. See Dkt. No. 1 at ¶ 24
(stating that "Defendants publicly announced a
suspension of the coaches right before the end of the
season"); id. at if 37 (stating that unfounded
allegations of misconduct "caused the plaintiffs to
lose their employment"); Dkt. No. 17-2 at 10
(alleging that Defendants "notified the press of the
suspension"); id. at 18 (alleging that Defendants
"publiciz[ed] their suspension in the press"); id. at
15, 17-19 (alleging Plaintiffs' "loss of employment");

App. 28

id. at 18 (stating that "Defendants linked plaintiff

Vosburgh's termination with the termination of
plaintiff McHerron"). The Court will not permit
Plaintiffs to "evade a properly argued motion to
dismiss simply because Plaintiff1s] ha[ve] chosen
not to attach the [letters] to the complaint or to
incorporate [them] by reference." I. Meyer Pincus &
Assocs., P.C. v. Oppenheimer & Co., 936 F.2d 759,
762 (2d Cir. 1991).
Other evidence in the Complaint supports the
Court's conclusion that Plaintiffs relied on the terms
and effects of the May Letters to draft their
Complaint and Proposed Amended Complaint.
First, the May Letters specifically informed
Plaintiffs
that
"[d]uring
your
period
of
administrative leave, you are not permitted to be on
school grounds[.]" Dkt. No. 14-3 at 2; Dkt. No. 14-4
at 2. Both pleadings allege that Plaintiffs were
barred from school grounds without citing to the
May Letters. See Dkt. No. 1 at ¶ 26; Dkt. No. 17-2
at 11. Additionally, the May Letters informed
Plaintiffs that the District was "undertak[ing] an
investigation into potential misconduct," which is

App. 29
also discussed in both pleadings. See Dkt. No. 1 at
¶23 (alleging that Defendants "launched a so-called
'investigation' of the parents' complaints"); Dkt. No.
17-2 at 10 (same). As such, the Court finds that the
May Letters are integral to Plaintiff s claims, and
will consider the letters in deciding the pending
motion to dismiss. See Lawtone-Bowles v. City of
N.Y., Dep't of Sanitation, 22 F. Supp. 3d 341, 345
n.3 (S.D.N.Y. 2014) (finding that the court could
consider a termination Jetter submitted with the
defendant's motion to dismiss because the complaint
"relie[d] upon the tenns and effect of this
termination letter"); Uwakwe v. Bridging Access to
Care, Inc., No. 15-cv-6703, 2017 WL 1048070, *3
(E.D.N.Y. Mar. 16, 2017) (same); Advanced Marine
Techs., Inc. v. Burnham Sec., Inc., 16 F. Supp. 2d
375, 378 (S.D.N.Y. 1998) (finding that a letter
referred to and quoted by the complaint was
incorporated by reference); Kreiss v. McCown
Deleeuw & Co., 37 F. Supp. 2d 294, 298 n.3
(S.D.N.Y.
1999) (considering documents not
attached to the complaint, but which were integral
to the plaintiff's claims, and which the plaintiff had
notice of and relied upon).
4.

Procedural Due Process

App. 30
In order to prevail on a Fourteenth
Amendment procedural due process claim
pursuant to 42 U .S.C. § 1983, "the plaintiff must
show (I) that he possessed a protected liberty or
property interest; and (2) that he was deprived of
that interest without due process." Rehman v.
State Univ. of N.Y at Stony Brook, 596 F. Supp. 2d
643, 656 (E.D.N.Y. 2009) (citing McMenemy v. City
of Rochester, 241 F.3d 279, 285-86 (2d Cir. 2001)).
"Property rights arise from 'an independent source
such as state law, [with] federal constitutional law
determin[ing] whether that interest rises to the
level of a legitimate claim of entitlement protected
by the Due Process Clause."' Pilchen v. City of
Auburn, N.Y , 728 F. Supp. 2d 192, 198 (N.D.N.Y.
2010)(quoting Memphis Light, Gas & Water Div. v.
Craft, 436 U.S. 1, 9 (1978)) (other quotation marks
and citation omitted) (alterations added by
Pilchen). The essential principle of procedural due
process is that a deprivation of life, liberty or
property should be preceded by notice and an
opportunity for a hearing appropriate to the nature
of the case.
See Cleveland Bd
of Educ. v.
Loudermill, 470 U.S. 532, 542 (1985) (citation
omitted). However, "[w]here there is a meaningful
postdeprivation remedy, there is no due process

App. 31
violation." Gudema v. Nassau County, 163 F.3d
717, 724 (2d Cir. 1998).
a.

Property Interest

Plaintiffs allege that McHerron has a
property interest in his substitute teaching
assignments and claim that Defendants interfered
with that right when they informed BOCES that
McHerron was on the District's DO NOT CALL list.
See Dkt. No. 17-1 at 10; Dkt. No. 17-2 at 1-2.
Under New York law, a substitute teacher does not
have a protected property interest in his
employment. See Rosendale v. Mahoney, 496 Fed.
Appx. 120, 121-22 (2d Cir. 2012). This is true even
where the substitute teacher had regularly received
substitute assignments in the past. See Canty v.
Ed. of Educ. of City of New York, 470 F.2d 1111,
1113 (2d Cir. 1972)(finding that the mere
"subjective expectancy" of a "regular" substitute
teacher in New York City did not entitle the teacher
to a due process hearing upon his dismissal because
he was not a tenured employee).
Therefore,
McHerron did not have a property interest in the
substitute teaching assignments, despite the fact
that he regularly worked as a substitute teacher in
the District in the past.

App. 32
b. Stigma-Plus Claim

Next, Plaintiffs allege that they have a
liberty interest in their reputation, and that
Defendants "permanently stigmatize[d] plaintiffs . .
by suggesting that plaintiffs were a danger to the
health and safety of students." See Dkt. No. I at if
36. This reputational harm has caused them "the
loss of their employment" and has adversely
impacted
Plaintiffs'
future
employment
opportunities. See Dkt. No. 17-1 at 14. Defendants
respond that Plaintiffs cannot satisfy the "plus"
factor of a stigma-plus claim because they have not
been terminated from their coaching positions, and
"'an employee who continues to be paid cannot
sustain a claim for deprivation of property without
due process."' See Dkt. No. 14-1 at 10 (citing Adams
v. New York State Educ. Dep't, 752 F. Supp. 2d
420, 453 (E.D.N.Y. 2010), aff d sub nom. Ebewo v.
Fairman, 460 Fed. Appx. 67 (2d Cir. 2012)).
The Supreme Court has made clear that
there is no constitutionally protected property or
liberty interest in one's reputation alone.
See
Siegert v. Gilley, 500 U.S. 226, 233 (1991) (citation
omitted); Paul v. Davis, 424 U.S. 693, 701 (1976).

App. 33
However, when an individual is defamed or
stigmatized in the course of his dismissal from
public employment, he does have a cognizable
liberty interest. See Codd v. Velger, 429 U.S. 624,
627 (1977); Paul, 424 U.S. at 701 & 710. This claim,
which is known as a "stigma-plus" claim, is
accorded only procedural due process protection specifically, the right to an opportunity to refute the
charges and clear one's name and reputation. See
Codd, 429 U.S. at 627; Paul, 424 U.S. at 710; Roth,
408 U.S. at 573. A stigma­ plus due process claim
requires a plaintiff to establish "(l) the utterance of
a statement about her that is injurious to her
reputation, 'that is capable of being proved false,
and that he or she claims is false,' and (2) 'some
tangible and material state-imposed burden . . . in
addition to the stigmatizing statement."' Velez v.
Levy, 401 F.3d 75, 87 (2d Cir. 2005) (quoting Doe v.
Dep't of Pub. Safety ex rel. Lee, 271 F.3d 38, 47 (2d
Cir. 2001), rev'd on other grounds, Conn. Dep't. of
Pub. Safety v. Doe, 538 U.S. 1 (2003)).
"Stigmatizing
statements"
are
those
statements that "'call into question [the] plaintiff s
good name, reputation, honor, or integrity"' or
"'denigrate the employee's competence as a
professional and impugn the employee's professional

App. 34
reputation in such a fashion as to effectively put a
significant roadblock in that employee's continued
ability to practice his or her profession."' Segal v.
City of New York, 459 F.3d 207, 212 (2d Cir. 2006)
(quotations omitted). The defamatory statement
"must be sufficiently public to create or threaten a
stigma; hence, a statement made only to the
plaintiff, and only in private, ordinarily does not
implicate a liberty interest." Velez, 401 F.3d at 87
(citing Donato v. Plainview-Old Bethpage Cent.
Sch. Dist., 96 F.3d 623, 631-32 (2d Cir. 1996)).
Finally, the plaintiff must show that the
stigmatizing statements were made in the course of,
or in close temporal proximity to, a discharge or
significant demotion. See Patterson v. City of Utica,
370 F.3d 322, 330 (2d Cir. 2004) (stating that
"plaintiff must show the stigmatizing statements
were made concurrently in time to plaintiffs
dismissal"). "A negative impact on job prospects, or,
for that matter, romantic aspirations, friendships,
self-esteem, or any other typical consequence of a
bad reputation, is insufficient." Boss v. Kelly, 306
Fed. Appx. 649, 651 (2d Cir. 2009) (internal
quotation marks and citation omitted).

App. 35
The Court finds that many of the allegations
in the Complaint and Proposed Amended Complaint
are not stigmatizing statements. First, statements
informing the press that parents had complained
about Plaintiffs and that Plaintiffs were on
administrative leave cannot be stigmatizing
utterances because they were the truth. See Velez,
401 F.3d at 87.
Second, the allegation that
Defendants "accused the coaches of doing things to
girls which some parents claimed happened (for
example, an alleged physical altercation with a
student) but the girls' own parents said never
happened," does not create or threaten a stigma
because Plaintiffs have not alleged that the
accusation was publicized.
See id. Third, the
allegation that the Booster Club made disparaging
comments about Plaintiffs does not support the
claims against Defendants because Plaintiffs do not
actually allege any conduct by Defendants. See
Dkt. No. 17-2 at 14. Finally, the report that
Defendants submitted to BOCES with generalized
feedback about McHerron was not a stigmatizing
utterance because it contained only "vague
statements of unspecified 'incompetence"' which do
not damage an employee's professional reputation
so as to require a hearing. See O'Neill v. City of

App. 36

Auburn, 23 F.3d 685, 692-93 (2d Cir. 1994) (finding

that "[g]ovemmental allegations of professional
incompetence . . . will not support a cause of action
for a name-clearing hearing unless the allegations
go 'to the very heart of [the employee's] professional
competence,' and threaten to 'damage his
professional reputation" (internal citation omitted));

cf Donato v. Plainview-Old Bethpage Cent. Sch.
Dist., 96 F.3d 623, 631 (2d Cir. 1996) (discussing
O'Neill and concluding that evaluations containing
"extensively detailed lists" of the employee's
"supposed professional failings" would trigger a
name-clearing hearing).

On the other hand, the Court finds that
Plaintiffs have alleged two utterances that may
support a stigma-plus claim: (1) that the coaches
had fostered a "negative and hostile environment"
and (2) that the girls on the team were victims of
"battered girlfriend syndrome." See Dkt. No. 1 at ¶
32-33. These statements were made sufficiently
public, because they were told to "members of the
See Velez, 401 F.3d at 87.
community."
Additionally, they may call into question each
Plaintiff's "'good name, reputation, honor, or
integrity,"' and could be "significant roadblock[s]" in
Plaintiffs' abilities to continue to coach lacrosse or

App. 37
McHerron's ability to work as a substitute teacher.

See id.

However, even assuming that the two
utterances are sufficiently stigmatizing, Plaintiffs
have not sufficiently alleged the "plus" prong of a
stigma-plus claim. Courts in this Circuit have
universally held that the suspension of an employee
with pay does not deprive that employee of a legal
right or status sufficient to satisfy the "plus" factor.
See e.g., O'Connor v. Pierson, 426 F.3d 187, 199 (2d
Cir. 2005) (stating that "no court has held that an
employee on fully paid leave has been deprived of a
property right merely by virtue of being relieved of
his job duties"). This is because employees do not
have a property right in doing their job.
See
Fitzgerald v. City of Troy, N Y , No. 1:10-CV-451,
2012 WL 5986547, *20 (N.D.N.Y. Nov. 28, 2012).
Here, Plaintiffs were fully paid while on
administrative leave, so they have not been
deprived of a property interest without due process.
See O'Connor, 426 F.3d at 199.
Still, Plaintiffs argue that even though the
Complaint does not actually say that Defendants
fired Plaintiffs, it contains "evidence" that

App. 38
Plaintiffs were terminated. See Dkt. No. 17-1 at 10
(citing Dkt. No. 1 at ¶¶ 24, 26-29, 31). This evidence
includes allegations that Plaintiffs were suspended
before the end of lacrosse season, Plaintiffs were
"ostracized and barred" from the school, and
McHerron
was
"denied
further
teaching
assignments." Id. Even construing all reasonable
inferences in Plaintiffs' favor, these allegations do
not compel the Court to the conclusion that
Plaintiffs were terminated. Rather, the Complaint
and May Letters show that Defendants did not
terminate Plaintiffs, but placed them on paid
administrative leave. See Dkt. No. 14-3 at 2; Dkt.
No. 14-4 at 2. Since Plaintiffs were fully paid
during this time, they have not been deprived of a
property interest without due process.
See
O'Connor, 426 F.3d at 199; Fitzgerald, 2012 WL
5986547, at *20.
Plaintiffs reliance on Patterson v. City of
Utica, 370 F.3d 322 (2d Cir. 2004) is unavailing.
According to Plaintiffs, in Patterson the Second
Circuit held that a "non-tenured teacher who has
been stigmatized in the course of a decision to
terminate his employment is entitled to a name
clearing hearing to clear his name and cure the

App. 39
injury to his reputation." See Dkt. No. 17-1 at 13.
In actuality, Patterson is not about a teacher, but
involves a stigma-plus claim brought by a city's
Department of Public Works commissioner
alleging that he was stigmatized during the course
of his termination. Patterson, 370 F.3d at 327-29.
Additionally, before permanently terminating the
commissioner, the defendants had repeatedly fired
and rehired him for short periods of time. Id.
at 332.
The court held that these repeated firings were
not terminations because there was no evidence
that the plaintiff was taken off the city payroll
during those gaps in employment. Id. (stating
that "[the commissioner's] time off the job is more
analogous to a suspension than a termination" so
"[i]t cannot, as a matter of law, be viewed as a
significant alteration of plaintiff’s employment
status").
Similarly here, Plaintiffs have not
alleged that they have been taken off the District's
payroll. Therefore, Patterson supports the Court's
conclusion that Plaintiffs' paid administrative
leave is not a termination for purposes of a
stigma-plus claim.

App. 40
Still, Plaintiffs argue that even if Defendants
did not formally terminate them, Plaintiffs have
been "constructively terminated" by the suspension
because McHerron can no longer teach in the
District and Plaintiffs have not been allowed to
return as coaches. See Dkt. No. 17-1 at 11; Dkt. No.
17-2 at 14.
Specifically, Plaintiffs allege that
Defendants (1) told Plaintiffs that "a lot would have
to change" before they would be allowed back,
without ever telling them what changes should be
made, (2) posted the coaching position as available
on a statewide site for educators, (3) prevented
McHerron from receiving substitute teaching
assignments within the District, (4) made
statements to BOCES "to the effect that Plaintiff
McHerron was unqualified for any position in the
District that involved interaction with students,"
and (5) linked Vosburgh's employment to
McHerron's by accusing her of enabling McHerron's
behavior. See Dkt. No. 17-1 at 11.
"[I]f a tenured employee who has been . . .
suspended with pay . . . can make out a claim of
constructive discharge, then he may have the same
right to bring a procedural due process claim that
he would have if he were fired." O'Connor, 426 F.3d

App. 41
at 200 n.5 (citing Parrett v. City of Connersville, 737
F.2d 690, 694 (7th Cir. 1984)).
Constructive
discharge requires a plaintiff to allege that "his
working conditions were made so miserable that he
was forced to quit" Parrett, 737 F.2d at 694. This is
a "rigorous test" requiring "sufficient deliberate,
abusive or otherwise intolerable working conditions
that must exist to justify an involuntary
resignation." Adams, 752 F. Supp. 2d at 431 (finding
that tenured teachers suspended with pay were not
constructively discharged).
In Parrett, the court held that a police chief
was constructively discharged when he was targeted
by a new town administration that made "no secret
of the fact that they were 'going to get [him]."'
Parrett, 737 F.2d at 693. After asking the plaintiff
to quit and failing to find any misconduct which
would have allowed them to fire him, the new
administration transferred the plaintiff to a new
position and told him he would not be assigned to
any police duties, moved him into a windowless
room without a telephone or furniture other than a
desk and chair, and forced him to remain idle. Id.
at 692-94. Although the plaintiff's pay did not
change, eventually the forced idleness caused him
to suffer a nervous collapse and cardiac

App. 42
abnormalities, resulting in his medical retirement
from the police force. Id. at 694. In contrast, in
Adams, the court found that tenured teachers were
not constructively discharged although they were
relieved of their job duties and transferred to
Temporary Reassignment
Centers (commonly
known as "rubber rooms") because they continued to
receive their full salaries and only two of the
plaintiffs had resigned prior to the resolution of
their disciplinary hearings. Adams, 752 F. Supp. 2d
at 430-31.
As a primary matter, the constructive
discharge doctrine is inapplicable here because
See
Plaintiffs are not tenured employees.
O'Connor, 426 F.3d at 200 n.5. However, even if
this doctrine did apply, Plaintiffs have not alleged
that they involuntarily resigned. See Adams, 752
F. Supp. 2d at 431. Moreover, nothing in the
Complaint suggests that Plaintiffs were subjected
to "sufficient deliberate, abusive or otherwise
intolerable working conditions."
Id.
Rather,
similar to the teachers in Adams, Plaintiffs were
removed from their positions temporarily while
awaiting the results of an investigation into the
allegations against them. Therefore, even if
Plaintiffs had a right to their coaching positions

App. 43
similar to the right vested in tenured teachers, the
Complaint does not allege facts that suggest a
constructive discharge.
Next, Plaintiffs argue that a stigma-plus
claim does not require the termination of a
government employee, hut only that the defamation
occurs in the course of the "termination of some
other legal right or status." See Dkt. No. 17-1 at
12. The Supreme Court has "strongly suggest[ed]
that defamation, even if it leads to a significant loss
of employment opportunities, is not a deprivation of
a liberty interest unless it occurs in the course of
dismissal or refusal to rehire the individual as a
government employee or during termination or
alteration of some other legal right or status." Neu
v. Corcoran, 869 F.2d 662, 666-67 (2d Cir. 1989)
(discussing Paul v. Davis, 424 U.S. 693 (1976)).
Unfortunately,
"[a]lthough it is clear that
defamation 'plus' loss of government employment
satisfies the . . . 'plus factor,' . . . outside that
context, 'it is not entirely clear what the "plus" is."'
DiBlasio v. Novello, 344 F.3d 292, 302 (2d Cir.
2003) (quoting Neu, 869 F.2d at 667).
Here, Plaintiffs have not adequately alleged
the termination of some other legal right or status.

App. 44
First, Plaintiffs rely on White Plains Towing Corp.
v. Patterson, 991 F.2d 1049 (2d Cir. 1993) for the
proposition that "[e]ven a person who has no
property right in continued employment may have a
due-process-protected liberty interest in not being
dismissed." See Dkt. No. 17-1 at 13. In that case,
the Second Circuit found that a towing company
had not alleged the termination of a legal right or
status because the company did not have a property
right in receiving towing assignments from an
"assignment system [that] contained no specificity
as to the duration of the relationship. " White Plains
Towing, 991 F.2d at 1062. The court found that
"[u]nder New York law, therefore, this plainly was
a relationship that was terminable at will." Id.
Similarly here, Plaintiffs did not have a property
right in their coaching positions, as they were
untenured employees whose relationships with the
District were terminable at will. Therefore, they do
not have a due-process-protected interest in their
untenured jobs.
Plaintiffs also argue that they have alleged
the "termination of some other legal right or status"
because they have suffered an "adverse impact on
future employment opportunities." See Dkt. No. 171 at 14. However, it is well established in this

App. 45
Circuit that "deleterious effects flowing directly
from a sullied reputation, standing alone, do not
constitute a 'plus' under the 'stigma plus' doctrine."
Cohane v. Nat'! Collegiate Athletic Ass'n, 612 Fed.
Appx. 41, 44 (2d Cir. 2015) (internal quotation
marks and citation omitted) (finding no stigma-plus
claim where a college basketball coach was
investigated for violating conference rules, resigned
during the investigation, and was subject to a
"show-cause" order that greatly harmed his chances
of seeking future employment). "When . . . the loss
of job prospects is merely a 'normal repercussion[ ]
of a poor reputation,' it cannot be the basis for a
stigma-plus claim." Id. (citing Valmonte v. Bane, 18
F.3d 992, 1001 (2d Cir. 1994)). Therefore, any
negative impact on Plaintiffs' job prospects is
nothing more than a "typical consequence of a bad
reputation,'' and cannot support a stigma-plus
claim. See Boss, 306 Fed. Appx. at 651. Moreover,
although Plaintiffs allege that the "battered
girlfriend syndrome" and "negative and hostile
environment" comments were made to "members of
the community," nothing in the Complaint or
Proposed Amended Complaint suggests that
Defendants made these statements to Plaintiffs'
prospective employers.
Therefore, Plaintiffs'
difficulty in finding employment is simply a

App. 46
"deleterious effect" of their now sullied reputations,
which, standing alone, does not support a
procedural due process claim. Cohane, 612 Fed.
Appx. at 44.
Finally, Plaintiffs argue that McHerron
enjoys a protected property interest in "the
meaningful opportunity to seek employment"
pursuant to his state-issued teaching license.
Although the majority of Courts in this district have
not recognized the existence of such a right, a small
group of cases have held that "New York State
recognizes that a teaching license entitles its holder
to a meaningful opportunity to seek employment
pursuant to that license." See Rogovin v. N.Y.C. Ed.
Educ., No. 99-CV-3382, 2001 WL 936191, *4
(E.D.N.Y. Aug. 17, 2001) (citation omitted);
Lombard v. Ed. of Educ., 645 F. Supp. 1574, 1579
(E.D.N.Y. 1986) (holding that the plaintiff stated a
Fourteenth Amendment cause of action for
deprivation of property "because New York
recognizes a teaching license as conferring a
'valuable property right' to seek employment which
may not be withdrawn without due process");
Mudge v. Zugalla, No. 1:13-CV-891, 2014 WL
2453353, *4 (N.D.N.Y. June 2, 2014) (finding that
the plaintiff adequately stated a procedural due

App. 47
process claim where the state's actions were the
"functional equivalent of a revocation" of the
plaintiff s teaching license).
In Mudge, a substitute teacher alleged that he
was terminated after New York State Department
of Education ("NYDOE") employees contacted his
current employers with defamatory statements
related to a prior suspension of his teaching license.
Mudge, 2014 WL 2453353 at *1-2. The court found
that the plaintiff adequately alleged that NYDOE
employees interfered with his protected interest in
the meaningful opportunity to seek employment
pursuant to his state-issued teaching license
because "the NYDOE has a virtual monopoly on
state-issued teaching licenses, and actions by its
employees to prevent an individual from working in
its schools are tantamount to denying him the
benefit of that license without any procedural due
process."
Id. at *4-5.
Following the same
reasoning, the school district defendants in that
case did not constructively revoke the plaintiff s
teaching license when they terminated him because
"the conduct of individual school districts and
superintendents impacts only plaintiff s per diem
substitute teacher positions in those respective
districts, it does not effectively deny him the

App. 48
opportunity to use his teaching license elsewhere in
the state." Id.
Even if the Court were to find that McHerron
has a property interest in the "meaningful
opportunity to seek employment" pursuant to his
state-issued teaching license, the Complaint and
Proposed Amended Complaint do not allege that
Defendants interfered with that right. Although
McHerron can no longer substitute teach in the
District, his license was not "constructively
revoke[d]" because he still has every "opportunity to
use his teaching license elsewhere in the state." See
id. Unlike the NYDOE, the District does not have a
virtual monopoly on teaching licenses, cannot issue
McHerron's teaching license, and thus, cannot
constructively revoke it. See id. at *4-5. Finally,
unlike in Mudge, where the NYDOE sent letters
and made phone calls to the plaintiff's employers,
Plaintiffs do not allege that Defendants ever told
future employers about the "negative and hostile
environment" and "battered girlfriend syndrome"
statements. See Dkt. No. 1 at ¶¶32-33. The other
allegations about comments made to employers are
merely conclusory statements that cannot survive a
motion to dismiss. See id. at ¶36 (broadly asserting
that Defendants "acted to permanently stigmatize"

App. 49
Plaintiffs which "could potentially make them
unemployable by any public school district")
(emphasis added); Dkt. No. 17-2 at 11, 14-15
(alleging that "highly negative comments" in the
BOCES report "could prevent plaintiff McHerron
from ever being hired") (emphasis added). As such,
the claim that Defendants constructively revoked
McHerron's substitute teaching license must fail.
Finally, Plaintiffs request a post-termination
name-clearing hearing, and rely on Handverger v.
City of Winooski, 605 Fed. Appx. 68 (2d Cir. 2015)
for the proposition that such a hearing satisfies due
process in the case of an at-will government
employee. See Dkt. No. 17-1 at 13. Before an atwill government employee may get a name-clearing
hearing, however, he must first demonstrate that he
has a protected property or liberty interest. Here,
as in Handverger, Plaintiffs have not alleged a
cognizable property or liberty interest.
See
Handverger v. City of Winooski, Vt., No. 5:08-CV246, 2013 WL 1386070, *15-16, 21 (D. Vt. Apr. 3,
2013). As such, Plaintiffs' claims for procedural due
process must be dismissed in their entirety.
5. Substantive Due Process

App. 50
Defendants argue that Plaintiffs' substantive
due process claim should be dismissed because
Defendants' conduct was not so "outrageously
arbitrary" or "conscience-shocking" as to constitute
"a gross abuse of governmental authority." See Dkt.
No. 18 at 13. Additionally, they argue that
Plaintiffs' status as coaches and McHerron's status
as a substitute teacher did not confer any
constitutionally protected right upon them, and so
the substantive due process claim must be
dismissed.
Id.
Plaintiffs respond that the
Complaint contains sufficient allegations for the
Court to infer that Defendants had a "wrongful
motive and no legitimate purpose" in suspending
and stigmatizing Plaintiffs because they knew the
parental complaints "were minor" and that the
parents had "some personal vendetta" against
Plaintiffs. See Dkt. No. 17-1 at 20-22 (citing Dkt
No. 1 at ¶¶ 13, 18-21, 22-25, 29, 31, 33-34).
Generally, to establish a substantive due
process violation, a plaintiff must (1) identify the
constitutional right at stake and (2) demonstrate
that the government's action was conscience­
shocking or arbitrary in the constitutional sense.
See Little v. City of New York, 487 F. Supp. 2d 426,
443 (S.D.N.Y. 2007) (citing Lowrance v. Achtyl, 20

App. 51
F.3d 529, 537 (2d Cir. 1994)). To satisfy his or her
burden, a plaintiff must demonstrate that the
defendant's actions were "so egregious, so
outrageous, that [they] may fairly be said to shock
the
contemporary
conscience."
County
of
Sacramento v. Lewis, 523 U.S. 833, 847 n.8 (1998);
see also Matican v. City of New York, 524 F.3d 151,
158 (2d Cir. 2008). The "shock the conscience"
standard is not easily met; the plaintiff must show
that the government's conduct was "egregious" and
"outrageous," and "not merely incorrect or illadvised." Ferran v. Town of Nassau, 471 F.3d 363,
369-70 (2d Cir. 2006) (internal quotation omitted).
In school discipline cases, the Supreme Court
has stated that, "[i]t is not the role of the federal
courts to set aside decisions of school administrators
which the court may view as lacking a basis in
Wood v. Strickland, 420
wisdom or compassion."
U.S. 308, 326 (1975) (finding that Section 1983 "was
not intended to be a vehicle for federal court
correction of errors in the exercise of [the discretion
and judgment of school administrators] which do
not rise to the level of violations of specific
constitutional guarantees"); see also Bd. of Educ. v.
McCluskey, 458 U.S. 966, 971 (1982) (following
Wood and holding that the federal court should not

App. 52
replace a school board's construction of its rules
with its "own notions under the facts of th[e] case").
As discussed in the preceding section,
Plaintiffs have not identified a constitutional right
stemming from their status as coaches or
McHerron's status as a substitute teacher.
Regardless, nothing in the Complaint or Proposed
Amendment Complaint suggests that Defendants'
conduct was so egregious that it violated Plaintiffs'
substantive due process rights. Although Plaintiffs
claim that the complaints about them were "minor"
and "other coaches engaged in worse conduct and
were not punished," the Complaint does not contain
any factual allegations to support these conclusory
statements. See Dkt. No. 17-1 at 21. Similarly,
although Plaintiffs argue in their Opposition that
some parents had a "personal vendetta" against
them, the Complaint does not allege such a vendetta
and contains no facts to support this. See id.
Rather, the Complaint alleges that Defendants
responded to parental complaints about coaching
misconduct
by
placing Plaintiffs
on paid
administrative
leave and
investigating
the
allegations. See Dkt. No. 1 at ¶¶ 18-19; Dkt. No. 143 at 2; Dkt. No. 14-4 at 2. That decision was far
from an egregious, outrageous response to the

App. 53
parents' misconduct allegations. See Lewis, 523
U.S. at 847 n.8. Moreover, while Plaintiffs criticize
Defendants for informing the press about the
suspension, the Complaint does not allege facts to
support Plaintiffs' claim that Defendants' only
intent in doing so was to "malign" Plaintiffs. See
Dkt. No. 17-1 at 21. Assuming the allegations in
the Complaint to be true, Defendants informed a
local newspaper that they placed two coaches on
paid administrative leave while they investigated
complaints about them. See Dkt. No. 1 at if 28; Dkt.
No. 17-2 at 10. Even if the Court believed that the
decision to inform the press was "incorrect or illadvised," see Ferran, 471 F.3d at 369-70, it is not
the role of this Court to "set aside decisions of
school administrators which the court may view as
lacking a basis in wisdom or compassion." See
Wood, 420 U.S. at 326.
Accordingly, Plaintiffs' substantive due
process claim is dismissed.
E.

Motion to Amend

1.

Legal Standard

App. 54
According to Rule 15 of the Federal Rules of
Civil Procedure, since Plaintiffs did not amend their
Complaint within 21 days after serving it or after
service of Defendants' Rule l2(b) motion, they now
"may amend [their] pleading only with the opposing
party's written consent or the court's leave. The
court should freely give leave when justice so
requires." Fed. R. Civ. P. 15(a)(2). Notwithstanding
this lenient standard, the decision to grant or deny
leave to amend is within the discretion of the
district court. See Foman, 371 U.S. at 182. A
district court may properly deny leave to amend for
"undue delay, bad faith or dilatory motive on the
part of the movant, repeated failure to cure
deficiencies by amendments previously allowed,
undue prejudice to the opposing party by virtue of
allowance of the amendment, futility of amendment,
etc." Id.. An amendment of a pleading is considered
"futile" when the proposed new claim would not
withstand a motion to dismiss under Rule 12(b)(6)
of the Federal Rules of Civil Procedure.
See
Ricciuti v. N.Y.C. Transit Auth., 941 F.2d 119, 123
(2d Cir. 199l)(stating that "[w]hen the plaintiff has
submitted a proposed amended complaint, the
district judge may review that pleading for adequacy
and need not allow its filing if it does not state a
claim upon

App. 55
which relief can be granted"). Additionally, Local
Rule 7.l(a)(4) requires that a party moving to
amend a pleading attach an unsigned copy of the
proposed amended pleading to its motion papers.
N.D.N.Y. L.R. 7.l(a)(4).
Plaintiffs have submitted
a Proposed
Amended Complaint in compliance with Local Rule
7.l(a)(4).
See Dkt. No. 17-2.
The Proposed
Amended Complaint alleges new facts in support of
its procedural due process and substantive due
process claims, which the Court addressed supra.
Additionally, Plaintiffs now allege that Defendants
retaliated against them for filing this lawsuit, in
violation of the First Amendment. See id. at 17-18.
The Court has reviewed this new allegation and, as
discussed below, finds that it cannot withstand a
motion to dismiss.
2.

First Amendment Retaliation Claim

Plaintiffs allege that Defendants retaliated
against them by "taking action to deprive them of
their coaching positions after the lawsuit was filed."
See Dkt. No. 17-1 at 22. Defendants respond that
Plaintiffs have not adequately pleaded this claim
because they have not alleged that the District has

App. 56
made any hiring decisions for the coaching
positions. See Dkt. No. 18 at 14.
"[T]he Second Circuit has 'described the
elements of a First Amendment retaliation claim in
several ways, depending on the factual context."'
Sloup v. Loe.filer, No. 05-CV-1766, 2008 WL
3978208, *22 (E.D.N.Y. Aug. 21, 2008) (quoting
Williams v. Town of Greenburgh, 535 F.3d 71, 76
(2d Cir. 2008)). In order for a public employee to
establish a First Amendment retaliation claim, the
employee must prove that "(l) he engaged in
constitutionally protected speech; (2) he suffered an
adverse employment action; and (3) the speech was
a 'motivating factor' in the adverse employment
decision." Gusler v. City of Long Beach, 823 F.
Supp. 2d 98, 123 (E.D.N.Y. 2011) (quotation
omitted).
A government employee's speech is
constitutionally protected if the employee is
speaking in his capacity as a citizen on a matter of
public concern. See Weintraub v. Bd. of Educ., 593
F.3d 196, 201-02 (2d Cir. 2010)(citations omitted).
This is because the government "may not deny a
benefit to a person on a basis that infringes his
constitutionally protected interests - especially, his
interest in freedom of speech. [. . .] We have applied
this general principle . . . regardless of the public

App. 57
employee's contractual or other claim to a job."
Perry v. Sinderman, 408 U.S. 593, 597 (1972); see
also Mazurek v. Wolcott Bd. of Educ., 815 F. Supp.
71, 76 (D. Conn. 1993) (finding that a substitute
teacher alleged a First Amendment retaliation claim
where a school stopped giving her substitute
teaching assignments after she complained about
its hiring practices).
a. Constitutionally Protected Speech

"Whether an employee's speech addresses a
matter of public concern must be determined by the
content, form, and context of a given statement, as
revealed by the whole record." Connick v. Myers,
461 U.S. 138, 147-48 (1983). The Second Circuit
has held that "[t]he heart of the matter is whether
the employee's speech was 'calculated to redress
personal grievances or whether it had a broader
public purpose.'" Ruotolo v. City of New York, 514
F.3d 184, 187-89 (2d Cir. 2008) (internal citation
omitted) (finding that a police officer who alleged
that he was retaliated against after he wrote a
report that identified serious health concerns in the
precinct was not speaking on a matter of public
concern because the lawsuit sought to redress his
personal grievances, not to advance a public

purpose).

App. 58

In the present matter, Plaintiffs have not
adequately
alleged
that they
engaged
in
constitutionally protected speech.
Although
Plaintiffs argue that "[t]he problem of abusive
behavior by coaches . . . has long been a matter of
public concern," they do not cite to any cases to
support this statement. See Dkt. No. 17-1 at 24.
Plaintiffs allege that their due process rights have
been violated, and they filed this lawsuit to "redress
[these] personal grievances," not to serve "a broader
public purpose."' Ruotolo, 514 F.3d at 189; see also
Ezekwo v. N. Y.C. Health & Hasps. Corp., 940 F.2d
775, 781 (2d Cir. 1991) (finding that a doctor's
discrimination allegations were not matters of
public concern because the plaintiff "was not on a
mission to protect the public welfare. Rather, her
primary aim was to protect her own reputation and
individual development as a doctor"). Therefore, the
Court finds that Plaintiffs did not file this lawsuit
as "concerned citizens." See Hanig v. Yorktown
Cent. Sch. Dist., 384 F. Supp. 2d 710, 722 (S.D.N.Y.
2005) (finding that "[t]he key inquiry is whether the
statements were made by plaintiff in her role as a
disgruntled employee or her role as a concerned
citizen"). In the alternative, Plaintiffs argue that
Defendants "made the issues involving plaintiffs a

App. 59
matter of public concern by publicizing their
suspension in the press." See Dkt. No. 17-2 at 18.
Again, Plaintiffs do not cite to any cases for the
proposition that a defendant's conduct can
transform a private statement into a matter of
public concern. Since the filing of the Complaint
had the primary aim of repairing Plaintiffs'
reputations and future job prospects as coaches and
a teacher, the Court finds that it is not speech about
an issue of public concern.
Plaintiffs' reliance on Cioffi v. Averill Park
Cent. Sch. Dist. Bd. of Educ., 444 F.3d 158 (2d Cir.
2006) is misplaced. Cioffi involved a letter and press
conference about a hazing incident in which a
student was sexually assaulted on school property.
Id. at 164. The Second Circuit held that the letter
and press conference were constitutionally protected
speech because "[t]he incident itself, the deficiencies
in adult supervision that allowed it to occur, and
the possible insufficiencies of the school's response
implicate[d] the health, welfare and safety of young
students" and were all "matters of importance to
the public." Id. Unlike in Cioffi, here the speech
did not take the form of public statements about
community issues, but rather was the filing of a
complaint which alleged violations of Plaintiffs'

App. 60
personal rights. The fact that the Complaint "could
be construed broadly to implicate matters of public
concern does not alter [its] general nature . . . ."
Ezekwo, 940 F.2d at 781. Accordingly, the Court
finds that Plaintiffs have not adequately alleged
that they engaged in constitutionally protected
speech.
b. Adverse Employment Action

"[W]hether a particular action constitutes an
adverse employment action in the First Amendment
retaliation context, a plaintiff must show that the
retaliatory action 'would deter a similarly situated
individual of ordinary fomness from exercising his
or her constitutional rights.'" Monsour v. N. Y. State

Officefor People With Developmental Disabilities,

No. 1:13-CV-336, 2017 WL 3972044, *5 (N.D.N.Y.
July 7, 2017) (quoting Zelnik v. Fashion Inst. of
Tech., 464 F.3d 217, 225 (2d Cir. 2006)) (other
citation omitted).
Adverse employment actions
"typically 'include discharge, refusal to hire, refusal
to promote, demotion, reduction in pay, and
reprimand."' Gallagher v. Town of Fairfield, No.
3:10-CV-1270, 2011 WL 3563160, *4 (D. Conn. Aug.
15, 20ll)(quoting Morris v. Lindau, 196 F.3d 102,
110 (2d Cir. 1999)). Although lesser actions may

App. 61
meet the adversity threshold, the Second Circuit
has "not explicitly defined what quantum of lesser
actions constitutes an adverse employment action."
Amato v. Hartnett, 936 F. Supp. 2d 416, 432-33
(S.D.N.Y. 2013) (citing Phillips v. Bowen, 278 F.3d
103, 109 (2d Cir. 2002)).
However, the Second Circuit has instructed that
"[s]uch actions may also include a pattern of
harassment, where, using an 'objective standard,'
a plaintiff shows that 'the total circumstances of
her working environment changed to become
unreasonably
inferior and adverse when
compared to a typical or normal, not ideal or
model, workplace."' Montero v. City of Yonkers,
N.Y., 890 F.3d 386, 401 (2d Cir. 2018) (citing
Phillips, 278 F.3d at 109).
Here, Plaintiffs have not alleged anything
that would "deter a similarly situated individual of
ordinary finnness from exercising his or her
constitutional rights." Monsour, 2017 WL 3972044,
at *5. Plaintiffs have not been terminated from
their jobs, and they have not alleged that their
"working
environment
changed
to
become
unreasonably inferior and adverse when compared
to a typical or normal . . . workplace." Phillips, 278
F.3d at 109. Plaintiffs argue that this lawsuit was

App. 62
at least a "motivating factor" in Defendants posting
the coaching position as "vacant." See Dkt. No. 172 at 13-14. However, the job posting did not affect
Plaintiffs at all, since no hiring decisions have been
made.
In fact, there are no allegations that
Plaintiffs' working environment changed after they
initiated this action, as Plaintiffs were on paid
administrative leave both before and after they filed
the Complaint. Therefore, the Court finds that
Plaintiffs did not suffer an adverse employment
action.
Accordingly, since Plaintiffs have failed to
allege that they engaged in constitutionally
protected
speech and suffered an adverse
employment action as a result of that speech, the
Court finds that they have failed to state a claim for
retaliation under the First Amendment.

3. Amendment is Futile
After reviewing all of the allegations in the
Proposed Amended Complaint, the Court finds that
it would not withstand a motion to dismiss. See
Ricciuti, 941 F.2d at 123. As such, Plaintiffs' CrossMotion to Amend the Complaint is denied as futile.

See id.

App. 63
IV. CONCLUSION
After carefully reviewing the Complaint, the
parties' submissions, and the applicable law, the
Court hereby
ORDERS that Defendants' Motion to Dismiss
(Dkt. No. 14) is GRANTED in its entirety; and the
Court further
ORDERS that Plaintiffs' Cross-Motion to
Amend the Complaint (Dkt. No. 17) is
DENIED; and the Court further
ORDERS that the Clerk of the Court shall
enter judgment in Defendants' favor and close this
case; and the Court further
ORDERS that the Clerk of the Court shall
serve a copy of this Memorandum-Decision and Order
on all parties in accordance with the Local Rules.
IT IS SO ORDERED.
Dated: January 24, 2019
Albany, New York

Mae A. D'Agostino
U.S. District Judge

App. 64
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court
of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 7th
day of November, two thousand nineteen.
Mary Lou Vosburgh, Jake McHerron,
ORDER

v.

Plaintiffs- Appellants,

Docket No:
19-259

Burnt Hills - Ballston Lake Central School District,
Patrick McGrath, Timothy Brunson, Joe Scalise,
Defendants- Appellees.

App. 65
Appellants, Mary Lou Vosburgh and Jake
McHerron, filed a petition for panel rehearing, or, in
the alternative, for rehearing en bane. The panel
that determined the appeal has considered the
request for panel rehearing, and the active
members of the Court have considered the request
for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

